              Audit Report



Employers Who Report Wages with
Significant Errors in the Employee
Name and Social Security Number




       A-08-12-13036 | August 2013
MEMORANDUM


Date:      August 9, 2013                                                     Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Employers Who Report Wages with Significant Errors in the Employee Name and Social
           Security Number (A-08-12-13036)

           The attached final report presents the results of our audit. Our objectives were to identify
           patterns of errors and irregularities in wage reporting for (1) 100 employers who had the most
           suspended wage items and (2) 100 employers who had the highest percentage of suspended wage
           items for Tax Years 2007 through 2009

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Employers Who Report Wages with Significant Errors in the
Employee Name and Social Security Number
A-08-12-13036
August 2013                                                                Office of Audit Report Summary

Objectives                                  Our Findings

To identify patterns of errors and          For TYs 2007 through 2009, the 100 employers who had the most
irregularities in wage reporting for        suspended wage items had submitted over 2.3 million wage items
(1) 100 employers who had the most          for which the employees’ names and/or SSNs did not match SSA’s
suspended wage items and                    records. These wage items represented $15.7 billion in suspended
(2) 100 employers who had the highest       earnings over the 3-year period. The 100 employers who had the
percentage of suspended wage items          highest percentage of suspended wage items for TYs 2007 through
for Tax Years (TY) 2007 through             2009 submitted over 111,000 wage items for which the employees’
2009.                                       names and/or SSNs did not match SSA’s records. These wage
                                            items represented $409 million in suspended earnings over the
Background                                  3-year period.

Because the Social Security                 We identified various types of reporting irregularities, such as
Administration (SSA) calculates future      invalid and unassigned SSNs and SSNs that belonged to young
benefit payments based on the earnings      children and deceased individuals. While we recognize there were
an individual has accumulated over          legitimate reasons why a worker’s name and SSN may not match
his/her lifetime, it is critical that the   SSA’s files, such as a legal name change, we believe the magnitude
Agency accurately record those              of incorrect wage reporting may indicate SSN misuse.
earnings. SSA’s ability to do so,
however, depends, in part, on               Although SSA continued working with the Internal Revenue
employers and employees correctly           Service (IRS) and Department of Homeland Security (DHS) and
reporting names and Social Security         educating employers about the importance of accurate wage
numbers (SSN) on Forms W-2, Wage            reporting, obstacles remained. We believe SSA’s ability to combat
and Tax Statement. SSA uses                 SSN misuse was hindered because employers did not use the Social
automated edits to match employees’         Security Number Verification Service and E-Verify. In addition,
names and SSNs with Agency records          the IRS did not routinely fine/penalize employers who consistently
to ensure it properly credits earnings to   submitted erroneous or incorrect wage reports. Furthermore,
the Master Earnings File. SSA places        privacy and disclosure issues limited SSA’s ability to share
wage items that fail to match name and      information with DHS regarding employers who filed high numbers
SSN records in its Earnings Suspense        or percentages of wage statements with inaccurate SSNs.
File (ESF). For TYs 1937 through
2010, the ESF accumulated                   Our Recommendation
approximately 320 million wage items
representing about $1.1 trillion in         We recommend SSA continue working with the IRS and DHS to
wages. In TY 2010 alone, SSA posted         develop a coordinated strategy to reduce growth of the ESF.
approximately 7.3 million wage items,
                                            SSA agreed with our recommendation.
representing about $70.3 billion, to the
ESF.
TABLE OF CONTENTS
Objectives ........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     SSN Misuse Remains Widespread.............................................................................................3
           Types of Reporting Irregularities .........................................................................................3
           Unauthorized Noncitizen Workforce Remains a Contributor to SSN Misuse ....................4
     Obstacles Continued Hindering SSA’s Ability to Combat SSN Misuse ...................................5
           Employers Did Not Routinely Use SSNVS or E-Verify .....................................................5
           The IRS Did Not Generally Penalize Employers for Inaccurate Wage Reporting ..............6
           Privacy and Disclosure Issues Limited SSA’s Ability to Share Information with DHS .....7
Conclusions ......................................................................................................................................8
Recommendation .............................................................................................................................8
Agency Comments ...........................................................................................................................8
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Analysis of Employers’ Earnings Suspense File Wage Items for Tax Years 2007
           Through 2009 ......................................................................................................... B-1
Appendix C – Prior Reports ....................................................................................................... C-1
Appendix D – Agency Comments .............................................................................................. D-1
Appendix E – Major Contributors...............................................................................................E-1




Employers Who Report Wages with Significant Errors in the Employee Name and SSN (A-08-12-13036)
ABBREVIATIONS
DHS                 Department of Homeland Security

ESF                 Earnings Suspense File

ESLO                Employer Service Liaison Officer

EVS                 Employee Verification Service

FY                  Fiscal Year

GAO                 Government Accountability Office

IRS                 Internal Revenue Service

OMB                 Office of Management and Budget

SSA                 Social Security Administration

SSN                 Social Security Number

SSNVS               Social Security Number Verification Service

TY                  Tax Year

U.S.C.              United States Code

Forms

W-2                 Wage and Tax Statement

W-2C                Corrected Wage and Tax Statement




Employers Who Report Wages with Significant Errors in the Employee Name and SSN (A-08-12-13036)
OBJECTIVES
Our objectives were to identify patterns of errors and irregularities in wage reporting for
(1) 100 employers who had the most suspended wage items and (2) 100 employers who had the
highest percentage of suspended wage items for Tax Years (TY) 2007 through 2009.

BACKGROUND
Because the Social Security Administration (SSA) calculates future benefit payments based on
the earnings an individual has accumulated over his/her lifetime, it is critical that the Agency
accurately record those earnings. SSA’s ability to do so, however, depends, in part, on
employers and employees correctly reporting names and Social Security numbers (SSN) on
Forms W-2, Wage and Tax Statement. SSA uses automated edits to match employees’ names
and SSNs with Agency records to ensure it properly credits earnings to the Master Earnings File.
SSA places wage items 1 that fail to match name and SSN records in its Earnings Suspense File
(ESF). The ESF has accumulated approximately 320 million wage items representing about
$1.1 trillion in wages for TYs 1937 through 2010. In TY 2010 alone, SSA posted 7.3 million
wage items, representing about $70.3 billion, to the ESF, as shown in Table 1.

             Table 1: Number of Items and Dollar Amounts Posted to the ESF for
                                  TYs 2006 Through 2010
                           TY            Number of ESF             Dollar Amount for
                                         Items (millions)          ESF Items (billions)
                          2006                11.0                        $86.2
                          2007                10.8                        $90.7
                          2008                  9.5                       $87.5
                          2009                  7.8                       $73.4
                          2010                  7.3                       $70.3

Our April 2005 review of Social Security Number Misuse in the Service, Restaurant, and
Agriculture Industries (A-08-05-25023) determined that service, restaurant, and agriculture
employers submitted millions of wage items for which their employees’ names and/or SSNs did
not match SSA’s records, resulting in billions of dollars in suspended wages. 2 Because of
continued congressional interest in the ESF and employers who consistently submit inaccurate
wage reports, we elected to update our earlier work and develop a better understanding of the
issues that contribute to SSN misuse and the growth of the ESF.



1 A wage item is an individual employee report prepared by employers on a Form W-2 after the close of the
calendar year that shows wages paid and taxes withheld during the prior calendar year.
2 We use the term “SSN misuse” throughout the report to refer to situations in which individuals used SSNs not
issued to them by SSA to obtain employment.



Employers Who Report Wages with Significant Errors in the Employee Name and SSN (A-08-12-13036)                  1
To accomplish our objectives, we obtained ESF data for TYs 2007 through 2009. 3 These data
represented the most complete tax data available at the start of our audit, given the inherent lag in
posting annual wage information. We then identified the 100 employers who contributed the
most wage items to the ESF for the 3-year period. We also identified the 100 employers (with a
minimum of 100 employees) who had the highest percentage of suspended wage items for
TYs 2007 through 2009. 4 For the 200 employers selected, we analyzed ESF data to identify
reporting irregularities, such as SSNs that SSA either had never issued or assigned to another
individual. We also contacted Employer Service Liaison Officers (ESLO) 5 to obtain information
on their experiences with employers who provided names and/or SSNs that did not match SSA’s
records. See Appendix A for additional information on our scope and methodology.

RESULTS OF REVIEW
For TYs 2007 through 2009, the 100 employers who had the most suspended wage items had
submitted over 2.3 million wage items for which the employees’ names and/or SSNs did not
match SSA’s records. These wage items represented $15.7 billion in suspended earnings over
the 3-year period. In total, 18 percent of the wage items these employers submitted did not
match names/SSNs in SSA’s files.

The 100 employers who had the highest percentage of suspended wage items for TYs 2007
through 2009 had submitted over 111,000 wage items for which the employees’ names and/or
SSNs did not match SSA’s records. These wage items represented $409 million in suspended
earnings over the 3-year period. In total, 93 percent of the wage items submitted by these
100 employers did not match the names/SSNs in SSA’s files.

We identified various types of reporting irregularities, such as invalid and unassigned SSNs and
SSNs that belonged to young children and deceased individuals. While we recognize there were
legitimate reasons why a worker’s name and SSN may not match SSA’s files, such as a legal
name change, we believe the magnitude of incorrect wage reporting may indicate SSN misuse.

Although SSA continued working with the Internal Revenue Service (IRS) and Department of
Homeland Security (DHS) and educating employers about the importance of accurate wage
reporting, obstacles remained. We believe SSA’s ability to combat SSN misuse was hindered
because employers did not use the Social Security Number Verification Service (SSNVS) and




3
    TY 2010 data were not available when we began our analysis of ESF data for TYs 2007 through 2009.
4
 While we recognize that some employers may report wages under more than one employer identification number,
we did not combine ESF wage items posted under multiple employer identification numbers to determine the
200 employers we identified.
5
 SSA has ESLOs in each of its regions nationwide to answer employers’ questions on wage reporting submissions
and encourage employers to use SSA’s various programs. However, ESLOs do not routinely identify employers
who submit large numbers or high percentages of inaccurate wage reports and contact them to determine why this is
occurring.



Employers Who Report Wages with Significant Errors in the Employee Name and SSN (A-08-12-13036)                 2
E-Verify. 6 In addition, the IRS did not routinely fine/penalize employers who consistently
submitted erroneous or incorrect wage reports. 7 Furthermore, privacy and disclosure issues
limited SSA’s ability to share information with DHS regarding employers who filed large
numbers or percentages of wage statements with inaccurate SSNs.

SSN Misuse Remains Widespread
Over 2.4 million (19 percent) of the 13 million wage items 8 submitted by the 200 employers we
reviewed did not match SSA records and were posted to the ESF, as shown in Table 2.

                      Table 2: Wage Items Posted to the ESF for TYs 2007-2009
                                                                 100 Employers
                                           100 Employers
                                                                  with Largest
                      Category               with Most                                       Totals
                                                                  Percentage of
                                            Wage Items
                                                                   Wage Items

                  Number of W-2s
                                             12,798,611              120,159            12,918,770
                    Submitted


                  Number of W-2s
                                              2,366,353              111,193             2,477,546
                  Posted to the ESF

                   Percent of W-2s
                                                       18                   93                    19
                  Posted to the ESF

Additional analysis of employers with the most suspended wage items showed 1 employer had
117,792 wage items posted to the ESF over the 3-year period. Our analysis of employers with
the highest percentage of suspended wage items showed one employer had 98 percent of its
wage items posted to the ESF over the 3-year period.

Types of Reporting Irregularities
During our review of ESF data for these 200 employers, we identified various types of reporting
irregularities that we believe may indicate SSN misuse. These irregularities included high



6
  SSNVS and E-Verify are services that allow employers to verify employees’ names and SSNs and employment
eligibility, respectively. See section Employers Did Not Routinely Use SSNVS or E-Verify of this report for
information regarding employers’ use of these services.
7
  Internal Revenue Code 6721 (26 U.S.C. § 6721) authorizes IRS to penalize employers for failure to file an
information return by the required filing date, failure to include complete information, and failure to include correct
information.
8
    The total number of wage items submitted by employers is cumulative and includes adjustments.



Employers Who Report Wages with Significant Errors in the Employee Name and SSN (A-08-12-13036)                           3
numbers of invalid and unassigned SSNs and SSNs belonging to young children and deceased
individuals (see Appendix B). Our analysis showed the following.

·    SSA had not assigned about 489,000 (20 percent) of the reported SSNs. About 54,000 of
     these SSNs were not valid because they did not fall within the ranges of numbers SSA had
     authorized for use.

·    SSA had assigned the remaining 2 million (80 percent) SSNs to someone else. About
     380,000 of these SSNs belonged to young children, and about 258,000 belonged to deceased
     individuals.

While we recognize there are legitimate reasons why a worker’s name and SSN may not match
SSA’s files, such as a name change, we believe the magnitude of the reporting irregularities
discussed above and in Appendix B may indicate SSN misuse.

Unauthorized Noncitizen Workforce Remains a Contributor to SSN Misuse
In previous reports, 9 SSA acknowledged unauthorized noncitizens’ 10 intentional misuse of SSNs
has been a major contributor to the ESF’s growth. SSA staff told us employers hired
unauthorized workers because nothing prevented them from doing so. That is, employers know
SSA had no legal authority to levy fines and penalties, and they were not concerned about
potential IRS sanctions. Several of the employers and industry associations we contacted
acknowledged that unauthorized noncitizens contributed to SSN misuse. For example, one
employer told us his and many restaurants would close if they did not hire unauthorized
noncitizens. A temporary labor service employer acknowledged that some of his former
employees were unauthorized noncitizens who used invalid, unassigned, and deceased
individuals’ SSNs. Furthermore, the president of a large growers’ association stated that farm
labor contractors employed a large number of unauthorized noncitizens.

Several ESLOs we contacted during this review stated employers that experienced the most
wage reporting problems were in such industries as agriculture, restaurant, and lawn service. In
addition, one large restaurant employer we contacted acknowledged that unauthorized
noncitizens accounted for about half of its wage items that went into the ESF. Furthermore, a
senior employment tax official at the IRS acknowledged that unauthorized noncitizens accounted
for a high percentage of inaccurate wage reporting.




9
 SSA, Office of the Inspector General, Obstacles to Reducing Social Security Number Misuse in the Agriculture
Industry (A-08-99-41004), January 2001, and Social Security Number Misuse in the Service, Restaurant, and
Agriculture Industries (A-08-05-25023), April 2005.
10
   We use the term “unauthorized noncitizens” when referring to individuals who do not have permission from the
DHS to work in the United States but who are working – regardless of whether they entered the country legally or
illegally.



Employers Who Report Wages with Significant Errors in the Employee Name and SSN (A-08-12-13036)                    4
Obstacles Continued Hindering SSA’s Ability to Combat SSN
Misuse
Our 2005 report discussed several obstacles that hindered SSA’s ability to reduce SSN misuse.
Although SSA continued working with the IRS and DHS and educating employers about the
importance of accurate wage reporting, obstacles remained. Employers’ resistance to routinely
using SSNVS or E-Verify hindered SSA’s ability to combat SSN misuse. In addition, the IRS
was reluctant to impose existing fines or penalties against employers who consistently submitted
erroneous or inaccurate wage reports. Furthermore, the Agency informed us that privacy and
disclosure issues limited SSA’s ability to share information with DHS regarding employers who
filed large numbers or percentages of wage statements with inaccurate SSNs. 11

Employers Did Not Routinely Use SSNVS or E-Verify
Our 2005 report noted that employers did not routinely use the Agency’s Employee Verification
Service (EVS) to assist them in verifying employee names and SSNs against SSA records. The
employers we interviewed who did not routinely use EVS experienced increases in the
percentage of suspended wage items for the years we reviewed. In contrast, one employer began
using EVS and experienced a significant decrease in the percentage of suspended wage items.

To make verification more attractive to employers, SSA implemented SSNVS in 2005. SSNVS
is a voluntary, free, secure Internet service that provides employers with an immediate response
for a limited number of SSN verification requests or a next business day response for a high
volume of SSN verification requests. In Fiscal Year (FY) 2012, approximately 40,000 registered
employers submitted about 102 million verifications. In FY 2011, about 43,000 employers
submitted 106 million verifications.

SSA also supports DHS in administering the E-Verify program, a free Internet-based system that
allows employers to verify electronically the employment eligibility of their employees. Federal
and some State governments require that employers use E-Verify. The Office of Management
and Budget (OMB) mandated that all Federal departments and agencies begin verifying their
new hires through E-Verify by October 1, 2007. 12 The amended Executive Order 12989 directed
all executive departments and agencies to require that contractors electronically verify
employment authorization of employees performing work under qualifying Federal contracts. 13
At least six States have laws requiring that all, or nearly all, businesses use E-Verify to determine


11
  Internal Revenue Code section 6103 (26 U.S.C. § 6103) provides that tax returns and return information are
confidential and may not be disclosed by the IRS and others having access to the information, with certain specific
exceptions.
12
     OMB Memorandum M-07-21, Verifying the Employment Eligibility of Federal Employees, August 10, 2007.
13
  Executive Order 13465, Amending Executive Order 12989, as Amended, 73 Fed. Reg. 33285 (June 11, 2008);
Executive Order 12989, Economy and Efficiency in Government Procurement Through Compliance with Certain
Immigration and Naturalization Act Provisions and Use of an Electronic Employment Eligibility Verification
System, June 6, 2008, 61 Fed. Reg. 6091 (February 15, 1996).



Employers Who Report Wages with Significant Errors in the Employee Name and SSN (A-08-12-13036)                       5
employment eligibility. 14 At least 12 other States have laws requiring that public employers
and/or public contractors use E-Verify. 15 As of FY 2012, over 404,000 employers had enrolled
to use E-Verify and submitted almost 23 million queries. This was an increase of more than
100,000 employers and almost 5 million queries submitted from the prior year.

Although the number of employers who use SSNVS and E-Verify has increased over the years,
many employers still do not routinely use these services to help reduce incidents of incorrect
wage reporting. Several ESLOs told us the ESF will not decrease until employers are required to
use SSNVS and E-Verify.

We believe SSNVS and E-Verify are useful tools for employers who are committed to improving
the accuracy of their wage reporting. However, until the IRS requires that employers who
consistently submit erroneous or inaccurate SSNs use SSNVS and E-Verify, we do not believe
employer wage reporting will significantly improve.

The IRS Did Not Generally Penalize Employers for Inaccurate Wage
Reporting
In previous reports, we noted that SSA relied on the IRS to enforce penalties for inaccurate wage
reporting because SSA had no legal authority to levy fines and penalties against employers who
submitted inaccurate wage reports. SSA senior staff did not believe employers had an incentive
to submit accurate annual wage reports because the IRS rarely enforced existing penalties. SSA
staff believed applying penalties would deter SSN misuse. Furthermore, SSA senior staff
believed the Agency could provide the IRS with sufficient evidence to show an employer knew
or should have known its employees’ SSNs were incorrect. For example, a reasonable person
should recognize that hundreds of workers could not have the same or consecutively numbered
SSNs.

The Government Accountability Office (GAO) also previously reported that the IRS’ program of
employer penalties was weak and recommended the IRS consider strengthening employer
requirements. 16 Additionally, GAO reported that IRS regulations permitted the IRS to waive
potential penalties if employers demonstrate a “reasonable cause” for the waiver. In its report,
GAO opined that the IRS’ criteria for meeting the waiver were such that few, if any, employers
were likely to be penalized for submitting inaccurate SSNs.

A senior IRS employment tax official we contacted during this review acknowledged that the
IRS has enforcement powers and can impose fines/penalties on employers who submit inaccurate
wage reports. In fact, he noted that the penalty for employers who submit incorrect names and


14
     Alabama, Arizona, Georgia, Mississippi, North Carolina, and South Carolina.
15
  Florida, Idaho, Indiana, Louisiana, Minnesota, Missouri, Nebraska, Oklahoma, Pennsylvania, Tennessee, Utah,
and Virginia.
16
  GAO, Tax Administration: IRS Needs to Consider Options for Revising Regulations to Increase the Accuracy of
Social Security Numbers on Wage Statements (GAO-04-712), August 2004.



Employers Who Report Wages with Significant Errors in the Employee Name and SSN (A-08-12-13036)                 6
SSNs recently increased from $50 to $100 for each incorrect wage item. Although the IRS
periodically conducts compliance audits, which may identify wage reporting issues, it could not
provide data on the number of employers it had penalized because of inaccurate wage reporting.
Furthermore, the tax official told us the IRS needs stronger standards (additional legislation) to
deter employers who submit inaccurate wage reports. In addition, several ESLOs told us they
were not aware of any fines/penalties the IRS had levied against employers who consistently
submit erroneous name and/or SSN information.

We acknowledge SSA’s efforts in working with the IRS to improve employer wage reporting.
Unless the IRS takes additional steps to hold employers who consistently submit erroneous or
incorrect wage reports accountable for their actions through an effective employer penalty
program, we do not believe employer wage reporting will significantly improve.

Privacy and Disclosure Issues Limited SSA’s Ability to Share Information with
DHS
We previously reported that SSA senior staff told us that collaboration between SSA and DHS
had been limited. We recommended that SSA (1) collaborate with DHS to develop a better
understanding of the extent immigration issues contribute to SSN misuse and ESF growth and
(2) reevaluate its application of existing disclosure laws or seek legislative authority to remove
barriers that would allow the Agency to share information regarding chronic problem employers
with DHS. Although SSA recognized that unauthorized noncitizens contributed to SSN misuse
and ESF growth, the Agency determined it could not share specific information with DHS
regarding employers who experienced high name and SSN error rates because of privacy and
disclosure laws. 17

GAO previously testified that DHS officials believed the ESF could be useful for targeting its
limited worksite enforcement resources. 18 For example, they could use the ESF to identify
employers who provide large numbers of invalid SSNs or names and SSNs that do not match.
According to GAO, DHS officials stated these employers might knowingly hire unauthorized
workers with no SSN or fraudulent SSNs. In fact, employers who knowingly report incorrect
information about their workers might also be involved in illegal activities involving
unauthorized workers.

SSA previously sent “no match” letters to employers who submitted Forms W-2 with employee
names and SSNs that did not match SSA records. The Agency stopped sending these letters in
response to litigation 19 surrounding a proposed DHS regulation that would have required that
employers follow a prescribed course of action upon learning of an employee name and SSN



17
     Ibid. at footnote 11.
18
  GAO, Social Security Numbers: Coordinated Approach to SSN Data Could Help Reduce Unauthorized Work
(GAO-06-458T), February 16, 2006.
19
     American Federation of Labor, et al., No. C 07-04472 CRB, N.D. Cal., 552 F. Supp. 2d 999 (October 10, 2007).



Employers Who Report Wages with Significant Errors in the Employee Name and SSN (A-08-12-13036)                     7
discrepancy. DHS later rescinded the proposed regulation, 20 and in 2011, SSA’s Commissioner
discontinued this process.

Although SSA continues coordinating with DHS on immigration issues and supporting the
E-Verify program, privacy and disclosure issues limit SSA’s ability to share information with
DHS. In our opinion, an effective plan to address SSN misuse and ESF growth should allow
SSA to share such information with DHS. We believe SSA, Congress, and other relevant
stakeholders must recognize that, until the issue of SSN misuse by unauthorized noncitizens is
addressed, the ESF will continue growing.

CONCLUSIONS
SSN misuse results in billions of dollars in wages that SSA cannot post to workers’ earnings
records each year. Through TY 2010, the ESF had grown to about $1.1 trillion in wages
reported by employers. We recognize no single agency can adequately combat this problem. In
previous reports, recommendations have been made to help reduce the growth of the ESF. These
reports are listed in Appendix C.

RECOMMENDATION
Although we are not repeating prior recommendations, SSA needs to continue its dialogue with
the IRS and DHS to address the intentional misuse of SSNs. Therefore, we recommend SSA
continue working with the IRS and DHS to develop a coordinated strategy to reduce growth of
the ESF.

AGENCY COMMENTS
SSA agreed with our recommendation. See Appendix D for the full text of the Agency’s
comments.




20
  Safe-Harbor Procedures for Employers Who Receive a No-Match Letter: Rescission, 74 Fed. Reg. 159
(Aug. 19, 2009).



Employers Who Report Wages with Significant Errors in the Employee Name and SSN (A-08-12-13036)      8
                                      APPENDICES




Employers Who Report Wages with Significant Errors in the Employee Name and SSN (A-08-12-13036)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objective, we:

·   Reviewed Social Security Administration (SSA) policies and procedures as well as
    applicable Federal laws, regulations, and cases regarding employer wage reporting.
·   Obtained Earnings Suspense File (ESF) data for Tax Years 2007 through 2009 for all
    employers with mismatched wage items.
·   Obtained data on the total number of Forms W-2, Wage and Tax Statement, and wages for
    employers with more than 10 items in the ESF.
·   Identified 100 employers who contributed the most suspended wage items and
    100 employers who had the highest percentage of suspended wage items (minimum of
    100 wage postings) in the 3-year period.
·   Calculated error rates for each employer by dividing the number of ESF wage items by the
    total number of Forms W-2 submitted by the employer for each year and the combined years.
·   Contacted selected employers to obtain information on their experiences with employees
    who provided names and Social Security numbers (SSN) that did not match SSA’s records.
·   Contacted Employer Service Liaison Officers to obtain information on their experiences with
    the ESF and employers who reported wage items with a significant number of errors in the
    employee’s name and SSN.
·   Analyzed ESF data for each of the 200 employers. Specifically, we categorized the ESF
    wage items for each of the 3 years to include the following reporting irregularities:
    unassigned and invalid SSNs and SSNs belonging to young children (under age 13) and
    deceased individuals.
·   Reviewed prior SSA Office of the Inspector General and Government Accountability Office
    reports. See Appendix C for a list of reports.

The SSA entity reviewed was the Office of Earnings, Enumeration, and Administrative Systems
under the Office of the Deputy Commissioner for Systems. This audit did not include an
evaluation of SSA’s internal controls over the wage reporting process. We also did not attempt
to establish the reliability or accuracy of the wage data. However, we determined that ESF data
were sufficiently reliable for purposes of our review. We conducted our audit from
September 2012 through March 2013 in Birmingham, Alabama. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




Employers Who Report Wages with Significant Errors in the Employee Name and SSN (A-08-12-13036)   A-1
Appendix B – ANALYSIS OF EMPLOYERS’ EARNINGS
             SUSPENSE FILE WAGE ITEMS FOR TAX YEARS
             2007 THROUGH 2009
                                                                                100 Employers
            Types of Reporting                                    100 Employers
                                                                                with Largest
                                                                  with Most
            Irregularities                                                      Percentage of
                                                                  Wage Items
                                                                                Wage Items
            Social Security Numbers (SSN) with All
            Zeros 1 or with Zeros as the Area, Group, or                  37,985             4,179
            Serial Numbers
            SSNs with All 9’s                                                 273                 0

            SSNs with Area Number 666                                         339                19

            SSNs with Area Numbers 773-999                                10,337               693

            Valid Unassigned SSNs 2                                     415,198             19,616

            Valid SSNs Assigned to Young Children 3                     364,859             15,195
            Valid SSNs Assigned to Deceased
                                                                        244,400             13,325
            Individuals
            Other Valid SSNs with Name Mismatches                     1,292,962             58,166

            Totals                                                    2,366,353           111,193




1
  If an employee has applied for an SSN card but has not received it when an employer files online, the Social
Security Administration (SSA) instructs employers to enter all zeros in the SSN field. When the employee receives
the card, the employer files Copy A of Form W-2C, Corrected Wage and Tax Statement with the employee’s correct
SSN. SSA Website, http://ssa-custhelp.ssa.gov/app/answers/detail/a_id/231/~/requirement-to-see-social-security-
card-for-employment (last visited Aug. 6, 2013). We could not readily distinguish which zeros were later adjusted
with a correct SSN.
2
    This category includes SSNs that SSA has not assigned.
3
    This category includes SSNs that SSA assigned to children under age 13.



Employers Who Report Wages with Significant Errors in the Employee Name and SSN (A-08-12-13036)              B-1
Appendix C – PRIOR REPORTS
      Report
   Identification                          Report Title                             Date Issued
     Number
                     Immigration Enforcement: Benefits and Limitations
   GAO-06-814R       to Using Earnings Data to Identify Unauthorized              July 2006
                     Work
                     Social Security Numbers: Coordinated Approach to
   GAO-06-458T                                                                    February 2006
                     SSN Data Could Help Reduce Unauthorized Work
                     Social Security: Better Coordination Among Federal
   GAO-05-154        Agencies Could Reduce Unidentified Earnings                  February 2005
                     Reports
                     Social Security Number Misuse in the Service,
   A-08-05-25023                                                                  April 2005
                     Restaurant, and Agriculture Industries
                     Employers with the Most Suspended Wage Items in the
   A-03-03-13048                                                                  October 2004
                     5-Year Period 1997 through 2001
                     Tax Administration: Internal Revenue Service Needs
                     to Consider Options for Revising Regulations to
   GAO-04-712                                                                     August 2004
                     Increase the Accuracy of Social Security Numbers on
                     Wage Statements
                     Follow-Up Review of Employers with the Most
   A-03-03-13026                                                                  October 2003
                     Suspended Wage Items
                     Recent Efforts to Reduce the Size and Growth of the
   A-03-01-30035     Social Security Administration’s Earnings Suspense           May 2002
                     File
                     Review of Service Industry Employer with Wage
   A-03-00-10022                                                                  September 2001
                     Reporting Problems
                     Obstacles to Reducing Social Security Number Misuse
   A-08-99-41004                                                                  January 2001
                     in the Agricultural Industry
                     The Social Security Administration’s Earnings
   A-03-97-31003     Suspense File Tactical Plan and Efforts to Reduce the        February 2000
                     File’s Growth and Size
                     Patterns of Reporting Errors and Irregularities by 100
   A-03-98-31009                                                                  September 1999
                     Employers with the Most Suspended Wage Items




Employers Who Report Wages with Significant Errors in the Employee Name and SSN (A-08-12-13036)    C-1
Appendix D – AGENCY COMMENTS




Employers Who Report Wages with Significant Errors in the Employee Name and SSN (A-08-12-13036)   D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“EMPLOYERS WHO REPORT WAGES WITH A SIGNIFICANT NUMBER OF
ERRORS IN THE EMPLOYEE NAME AND SOCIAL SECURITY NUMBER”
(A-08-12-13036)


Recommendation

Continue to work with the Internal Revenue Service (IRS) and Department of Homeland
Security (DHS) to develop a coordinated strategy to reduce growth of the Earnings Suspense File
(ESF).

Response

We agree. We will continue our efforts to reduce the growth of ESF.

Our efforts include promoting the use of the Social Security Number Verification Service
(SSNVS), which allows registered employers to verify employee names and Social Security
numbers for wage reporting purposes. We make the service available free
at: www.ssa.gov/employer/. We also continue to support DHS in its mission to increase the
number of employers who use E-Verify to verify employment eligibility. DHS currently enrolls
approximately 1,550 employers each week. As of June 22, 2013, there are almost 460,000
employers registered to use E-Verify at 1,370,000 employment sites. Increased use of both
SSNVS and E-Verify would result in fewer wage-reporting irregularities and, therefore, would
reduce the growth in the ESF.

We consider this recommendation closed for tracking purposes.




Employers Who Report Wages with Significant Errors in the Employee Name and SSN (A-08-12-13036)   D-2
Appendix E – MAJOR CONTRIBUTORS
Theresa Roberts, Acting Director, Atlanta Audit Division

Jeff Pounds, Audit Manager, Birmingham Office of Audit

Hollie R. Calhoun, Senior Auditor




Employers Who Report Wages with Significant Errors in the Employee Name and SSN (A-08-12-13036)   E-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   ·   OIG news                                  In addition, we provide these avenues of
   ·   audit reports
                                                 communication through our social media
                                                 channels.
   ·   investigative summaries
   ·   Semiannual Reports to Congress                Watch us on YouTube
   ·   fraud advisories                              Like us on Facebook
   ·   press releases
                                                     Follow us on Twitter
   ·   congressional testimony
   ·   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
